Review of Urban and Rural Development Grant Number 90EE0298/01, Impact Seven, Inc., Ashland, Wisconsin, A-05-01-00085
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Urban and Rural Development Grant Number 90EE0298/01, Impact
Seven, Inc., Ashland, Wisconsin," (A-05-01-00085)
February 22, 2002
Complete
Text of Report is available in PDF format (187kb). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This letter report provides the results of
our audit of discretionary grant number #90EE0298/01, awarded to Impact Seven,
Inc., Almena, Wisconsin.  The grant provided $600,000 (Federal share)
and $3,102,000 from non-Federal sources to purchase land, rehabilitate buildings,
construct new retail and manufacturing facilities for expanding businesses
and industry, and develop low-income housing in Ashland, Wisconsin.  Although
Impact Seven purchased, rehabilitated and constructed retail and business
properties and low-income housing in the Ashland community, it (i) did not
construct all of the retail and business properties proposed in the grant,
(ii) has not met the grant employment goals, and (iii) is unable to document
the percent of low-income individuals employed by the tenants benefiting
from the grant.